Audit Report




OIG-11-072
SAFETY AND SOUNDNESS: Material Loss Review of Charter
Bank
May 31, 2011




Office of
Inspector General
Department of the Treasury
Contents



Memorandum for the Acting Director, Office of Thrift Supervision


Section I   Mayer Hoffman McCann P.C.’s Audit Report on the Material
            Loss Review of Charter Bank


Section II Report Distribution
This page intentionally left blank.
                                          DEPARTMENT OF THE TREASURY
                                                 W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                                     May 31, 2011




            MEMORANDUM FOR JOHN E. BOWMAN
                           ACTING DIRECTOR
                           OFFICE OF THRIFT SUPERVISION

            FROM:                      Kieu T. Rubb /s/
                                       Audit Director

            SUBJECT:                   Material Loss Review of Charter Bank


            INTRODUCTION

            The Office of Thrift Supervision (OTS) closed Charter Bank (Charter), Santa Fe,
            New Mexico, and appointed the Federal Deposit Insurance Corporation (FDIC) as
            receiver on January 22, 2010. As of February 28, 2011, FDIC estimated that
            Charter’s loss to the Deposit Insurance Fund was $246.1 million.

            Under section 38(k) of the Federal Deposit Insurance Act, we are responsible for
            conducting a material loss review of the failure of Charter. 1 To help fulfill this
            responsibility, we contracted with Mayer Hoffman McCann P.C. (MHM), an
            independent certified public accounting firm. MHM’s report dated May 24, 2011, is
            provided as Section I.

            RESULTS OF MATERIAL LOSS REVIEW

            We concur with MHM’s reported conclusions regarding Charter’s causes of failure
            and OTS’s supervision of Charter.

                •   Charter failed primarily because of steep declines in asset quality in its
                    commercial real estate (CRE) loan portfolio, which included concentrations in
                    construction and land development loans. Charter’s management had
                    deepened the thrift’s concentration in higher risk real estate lending even as

            1
              Section 38(k), as amended by the Dodd-Frank Wall Street Reform and Consumer Protection Act,
            effective July 21, 2010, defines a material loss as a loss to the Deposit Insurance Fund in excess of
            $200 million for calendar years 2010 and 2011, $150 million for calendar years 2012 and 2013,
            and $50 million for calendar year 2014 and thereafter (with a provision that the threshold can be
            raised temporarily to $75 million if certain conditions are met).
Page 2

       the local economy showed signs of weakening in 2007 and 2008 and
       management failed to implement adequate loan underwriting and credit
       administration practices. Despite its increasing construction and land
       development concentration, Charter remained highly leveraged and did not
       increase its capital so that it might weather a significant economic downturn.

   •   OTS’s supervisory actions complied with its guidance available at the time.
       However, OTS did not recognize the magnitude of weaknesses in Charter’s
       growing CRE loan portfolio and increasing concentrations in construction and
       land development lending until it was too late. In its September 2008
       examination, OTS began to note more weaknesses in Charter’s CRE loan
       portfolio and the effects of the recession on New Mexico. In response to
       these weaknesses, OTS increased its monitoring and, in February 2009,
       performed a limited-scope examination that focused on asset quality. In the
       August 2009 full-scope examination, OTS continued to find many underlying
       weaknesses in the CRE loan portfolio that prompted significant downgrades
       of credits and adjustments to the allowance for loan and lease losses. As a
       result, OTS’s supervision of Charter did not prevent a material loss to the
       Deposit Insurance Fund.

Details of MHM’s conclusions are contained in their report.

We also concur with MHM’s reported recommendations that:

   •   OTS ensure that action is taken on the recommendations in the internal
       failed bank review for Charter that was issued August 4, 2010.

   •   OTS reemphasize to examiners and supervisors the importance of following
       sampling guidance in their reviews of non-homogeneous loans, including
       situations where minimum sample sizes should be increased due to the risks
       inherent in the loan portfolio, or the results of their loan reviews including
       significant downgrades to classified asset categories.

   •   OTS work with its regulatory partners to determine whether to propose
       legislation and/or change regulatory guidance to establish limits or other
       controls for concentrations that pose an unacceptable safety and soundness
       risk and determine an appropriate range of examiner responses to high risk
       concentrations.

Please be advised that in accordance with Treasury Directive 40-03, “Treasury
Audit Resolution, Follow-up, and Closure,” OTS is responsible for taking corrective
action on these recommendations. OTS should also record the recommendations
and related actions in the Department of the Treasury’s Joint Audit Management
Enterprise System.
Page 3


OBJECTIVES, SCOPE, AND METHODOLOGY

Under section 38 (k), we are responsible for preparing a report to OTS that
(1) ascertains why Charter’s problems resulted in a material loss to the Deposit
Insurance Fund; (2) reviews OTS’s supervision of the institution, including its
implementation of the prompt corrective action provisions of section 38(k); and
(3) makes recommendations for preventing any such loss in the future.

To help fulfill this responsibility, we contracted with MHM to perform a material
loss review in accordance with generally accepted government auditing standards.
We evaluated the nature, extent, and timing of the work; monitored progress
throughout the audit; reviewed MHM-prepared documentation; met with its
principals and staff; evaluated key judgments; met with OTS officials; performed
independent tests of OTS supervisory records; and performed other procedures we
deemed appropriate in the circumstances. We conducted our work in accordance
with generally accepted government auditing standards.

Section II identifies the recipients of this report. Should you wish to discuss the
report, you may contact me at (202) 927-5904.
This page intentionally left blank.
                   Section I

Mayer Hoffman McCann P.C.’s Audit Report on the
      Material Loss Review of Charter Bank
This page intentionally left blank.
             Charter Bank
          Material Loss Review
Safety and Soundness Performance Audit
              May 24, 2011
Contents

Mayer Hoffman McCann P.C. Audit Report                                       1

Results in Brief                                                            2
Causes of Charter’s Failure                                                 5
     Concentration in Construction and Land Development Loans
       During the Real Estate Downturn                                      5
     Inadequate Capital Levels for Risk Profile                             8
     Inadequate Loan Underwriting and Credit Administration
       Practices Led to Increase in Adversely Classified Assets             10
     Mortgage Operations Division Contributed to Volatility
       in Earnings and Capital Levels                                       11
OTS’s Supervision of Charter                                                12
      OTS’s Supervisory History and Actions                                 12
      OTS Did Not Take Timely Action to Address Unsafe
       Concentrations in High Risk Lending Areas                            13
      OTS Did Not Follow its Sampling Guidance for the Review of
       Non-Homogeneous Loans                                                14
      OTS Did Not Require Additional Capital Early Enough to
       Compensate for Higher Risk Activities                                16
      OTS Enforcement Actions                                               17
      PCA Was Taken by OTS as Charter’s Capital Levels Fell                 18
      OTS Failed Thrift Institution Review                                  20
Recommendations                                                             21
Appendices
Appendix 1: Objectives, Scope, and Methodology                              23
Appendix 2: Background                                                      26
Appendix 3: Glossary                                                        30
Appendix 4: Management Comments                                             37




Material Loss Review of Charter Bank                               Page i
Abbreviations
ALLL            Allowance for Loan and Lease Losses
C&D order       Cease and Desist Order
CRE             Commercial Real Estate
FDIC            Federal Deposit Insurance Corporation
MOU             Memorandum of Understanding
MRBA            Matter Requiring Board Attention
MSR             Mortgage Servicing Rights
OIG             Office of Inspector General
OTS             Office of Thrift Supervision
PCA             Prompt Corrective Action
ROE             Report of Examination
TFR             Thrift Financial Report




Material Loss Review of Charter Bank                    Page ii
Inspector General
Department of the Treasury

RE: Transmittal of Results for the Material Loss Review Report for Charter Bank,
Santa Fe, New Mexico.

This letter is to acknowledge delivery of our performance audit report of the
Material Loss Review for Charter Bank (Charter). The objectives of this
performance audit were to: (1) determine the causes of Charter’s failure and
resulting material loss to the Deposit Insurance Fund and (2) evaluate the Office
of Thrift Supervision’s (OTS) supervision of Charter, including the implementation
of the prompt corrective action (PCA) provisions of section 38 of the Federal
Deposit Insurance Act.

The performance audit results are in the accompanying performance audit report.
The information included in this report was obtained during our fieldwork, which
occurred during the period from April 15, 2010, through June 2, 2010.

We conducted our performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.

We also included several appendices to this report. Appendix 1 contains a
detailed description of our material loss review objectives, scope, and
methodology. Appendix 2 contains background information on Charter’s history
and OTS’s supervision process. Appendix 3 provides a glossary of terms used in
this report. The terms defined in the glossary are underlined the first time they
are used in the report. Appendix 4 provides OTS’s comments regarding the
report’s recommendations.



Leawood, Kansas
May 24, 2011
                                       -1-
Results in Brief
                         Charter’s failure was primarily caused by steep declines in
                         asset quality in its commercial real estate (CRE) loan
                         portfolio, which included concentrations in construction and
                         land development loans. Charter’s management had
                         deepened the thrift’s concentration in higher risk real estate
                         lending even as the local economy showed signs of
                         weakening in 2007 and 2008 and management failed to
                         implement adequate loan underwriting and credit
                         administration practices as well as other practices to
                         manage its CRE concentration risk. Despite its increasing
                         construction and land development concentration, Charter
                         remained highly leveraged and did not increase its capital so
                         that it might weather a significant economic downturn. In
                         addition, Charter maintained a large mortgage operation
                         that, while historically providing positive net income,
                         contributed to the thrift’s volatility in earnings and capital
                         ratios.

                         OTS’s supervision of Charter did not prevent an estimated
                         material loss of $246.1 million 1 to the Deposit Insurance
                         Fund. OTS did not recognize the magnitude of weaknesses
                         in Charter’s growing CRE loan portfolio and increasing
                         concentrations in construction and land development lending
                         until it was too late. OTS commented in the June 2007
                         examination on the thrift’s increasing risk profile due to
                         higher volumes of construction lending, lot lending, and CRE
                         lending. However, these comments regarding risk exposure
                         were minimized by other OTS conclusions in the same
                         examination report that asset quality was satisfactory, capital
                         was maintained at an adequate level commensurate with
                         Charter’s risk profile, and management was satisfactorily
                         managing concentration risks. Consequently, the June 2007
                         examination missed opportunities to address the thrift’s
                         growing concentration risks in construction, land
                         development, and CRE loans.

                         In its September 2008 examination, OTS began to note
                         more weaknesses in Charter’s CRE loan portfolio and the
                         effects of the recession on New Mexico. In response to
                         these weaknesses, OTS increased its monitoring and, in
                         February 2009, performed a limited-scope examination that
                         focused on asset quality. In the August 2009 full-scope
1
    The loss estimate is as of February 28, 2011.


Material Loss Review of Charter Bank                                         Page 2
                        examination, OTS continued to find many underlying
                        weaknesses in the CRE loan portfolio that prompted
                        significant downgrades of credits and adjustments to the
                        allowance for loan and lease losses (ALLL). The
                        adjustments ultimately resulted in Charter being critically
                        undercapitalized and later failing.

                        OTS examiners did not follow OTS sampling guidance for
                        their review of non-homogeneous loans. Many of the
                        underwriting weaknesses in the CRE loan portfolio were
                        identified in the September 2008 examination, but the scope
                        of the loan review was not increased in response to higher
                        risks and the full extent of the weaknesses were not
                        identified until the August 2009 examination.

                        Charter had a strategy of operating the thrift at a highly
                        leveraged position and conducting higher risk lending
                        activities, particularly in its construction and land
                        development lending. Higher risk activities generally require
                        more capital, especially if the activities are conducted at
                        significant concentration levels. OTS appropriately directed
                        Charter to increase capital levels in response to heightened
                        risk noted in the September 2008 examination. However,
                        earlier examinations should have placed more emphasis on
                        Charter’s growing concentration risk and weaknesses in its
                        risk management policies and procedures to manage those
                        concentration risks including an assessment of capital
                        adequacy.

                        An internal OTS review determined that Charter’s failure was
                        caused by excessive concentration in construction and land
                        development loans, deterioration in asset quality caused by
                        the downturn in the national economy, and inadequate
                        capital levels. Regarding supervision, the review found that
                        the thrift’s capital deficiency with respect to its concentration
                        risk was not properly evaluated, opportunities to curtail
                        growth in higher risk assets and impose higher minimum
                        capital requirements were missed, and risks posed by
                        increasing levels of higher risk loans and management’s
                        high leverage strategies were not adequately addressed.
                        The OTS review recommended that: 1) examination and
                        supervisory staff should impose higher capital requirements
                        and/or require prudent limits for higher risk lending
                        concentrations and 2) for thrifts with relatively high levels of
                        concentration risk, examination and regulatory staff should
                        evaluate management’s contingency plan to reduce or


Material Loss Review of Charter Bank                                          Page 3
                        mitigate the concentration risk in the event of adverse
                        market conditions.

                        Our material loss review affirms the findings and
                        recommendations of OTS’s internal review. Excessive
                        concentrations of higher risk loans were clearly a major
                        cause of failure and examiners did not have clear guidance
                        on what levels of concentrations posed unsafe and unsound
                        levels.

                        Recommendations

                        We are recommending that OTS: 1) Ensure that action is
                        taken on the recommendations made in the OTS failed thrift
                        institution review of Charter; 2) Reemphasize to examiners
                        the importance of following sampling guidance on its review
                        of non-homogeneous loans, including situations where
                        minimum sample sizes should be increased for risks
                        inherent in the loan portfolio or the results of its loan reviews
                        include significant downgrades to classified asset categories;
                        and 3) Work with its regulatory partners to determine
                        whether to propose legislation and/or change regulatory
                        guidance to establish limits or other controls for
                        concentrations that pose an unacceptable safety and
                        soundness risk and determine an appropriate range of
                        examiner response to high risk concentrations.

                        Management Response

                        As recommended in previous failed bank reviews, OTS has
                        issued additional examination guidance to staff to impose
                        higher capital requirements and/or require prudent limits for
                        higher risk lending concentrations. OTS agrees with our
                        recommendation to reemphasize to examiners and
                        supervisors the importance of following sampling guidance.
                        OTS issued CEO Letter 311 in July 2009 to address
                        increased regulatory scrutiny for concentration risk
                        management. Additionally, OTS supports all opportunities to
                        promote safe and sound business practices on an inter-
                        agency basis and will continue to work with the other federal
                        agencies until the implementation of the Dodd-Frank Act
                        transfers OTS responsibilities to other respective federal
                        banking agencies.

                        We included management’s response in its entirety as
                        Appendix 4.


Material Loss Review of Charter Bank                                          Page 4
Causes of Charter’s Failure
                        Concentration in Construction and Land Development
                        Loans During the Real Estate Downturn

                        Charter historically focused on real estate lending primarily
                        in its home state of New Mexico. At the beginning of the
                        nationwide real estate downturn in 2007, the thrift increased
                        its exposure to real estate by growing both its 1-4 family
                        owner-occupied and higher risk construction and land
                        development loan portfolios. From December 31, 2006, to
                        December 31, 2008, Charter’s construction and land
                        development loan portfolio increased about 35 percent, or
                        $83 million, as shown in Figure 1.

                      Figure 1. Growth in Construction and Land Development
                          Loan Portfolio (in millions)

                                        $350

                                        $300

                                        $250
                            ADC Loans




                                        $200
                                                                                                   $320
                                        $150                                       $295
                                                                   $237
                                        $100                                                                        $186
                                                   $169
                                         $50

                                         $0
                                               Dec 31, 2005   Dec. 31, 2006   Dec. 31, 2007   Dec. 31, 2008    Dec. 31, 2009



                      Source: Analysis from the Federal Deposit Insurance Corporation (FDIC) Statistics
                      on Depository Institutions.

                        Charter’s growth in its construction and land development
                        loan portfolio resulted in a concentration in higher risk
                        lending. In December 2006, OTS issued CRE guidance
                        (2006 CRE Guidance) to clarify to its examiners that
                        institutions actively engaged in CRE lending should:
                        (1) assess their concentration risk and (2) implement
                        appropriate risk management policies to identify, monitor,
                        manage, and control their concentration risks.2 The 2006

2
 OTS, Guidance on Commercial Real Estate (CRE) Concentration Risks, December 14,
2006.


Material Loss Review of Charter Bank                                                                  Page 5
                         CRE Guidance used certain criteria to identify thrifts that
                         may have CRE concentration risk. These include thrifts that:
                               •   Have CRE loans approaching the statutory limit for
                                   loans secured by nonresidential properties of 400
                                   percent of total capital; 3
                               •   Have experienced rapid growth in CRE lending;
                               •   Have notable exposure to a specific type of or high-
                                   risk CRE;
                               •   Were subject to supervisory concern over CRE
                                   lending during preceding examinations; or
                               •   Have experienced significant levels of delinquencies
                                   or charge-offs in their CRE portfolio.

                         As Figure 2 illustrates, the thrift’s pursuit of construction and
                         land development loans from 2005 through 2008 served to
                         heighten its risk profile. In both 2007 and 2008, construction
                         and land development loans were approaching the statutory
                         limit for loans secured by nonresidential properties of 400
                         percent of total capital. The portfolio also experienced rapid
                         growth from 2005 to 2008, and had notable exposure in the
                         higher risk construction and land development loans
                         segment of CRE loans.

                         Figure 2. Construction and Land Development Loans as
                         a Percent of Risk Based Capital



                               400%

                                                                                       350%
                               300%                                      329%
                                                                                                     280%
                                                          312%
                               200%
                                            251%

                               100%


                                   0%
                                        Dec. 31, 2005 Dec. 31, 2006 Dec. 31, 2007 Dec. 31, 2008 June 30, 2009

                         Source: Analysis from FDIC Statistics on Depository Institutions.



3
    12 U.S.C. 1464(c)(2)(B).


Material Loss Review of Charter Bank                                                           Page 6
                        While Charter’s management pursued higher risk loans, it
                        failed to manage the risks associated with its CRE
                        concentrations. While Charter did participate in CRE loans
                        outside of its home state, a majority of the thrift’s exposure
                        was confined to the Albuquerque and Santa Fe metropolitan
                        areas. Board of director minutes documented that
                        management and board members were aware of the
                        national real estate downturn affecting surrounding states in
                        2007 and 2008; however, they believed New Mexico’s
                        economy was fundamentally sound and that any real estate
                        downturn would be short-lived and mild.

                        Even though New Mexico lagged neighboring states in
                        entering the recession, economic data showed warning
                        signs as early as 2007 that the state would experience
                        similar declines in its real estate industry. Figure 3 shows the
                        peak in 2005 and subsequent declines in later years for the
                        number of building permits issued for single and multi-family
                        residences in New Mexico and the combined Albuquerque
                        and Santa Fe area. The severity of the downturn is
                        illustrated by the fact that the number of building permits
                        issued in the state dropped 10,405, or 64 percent, between
                        2005 and 2008. As illustrated in Figure 1, Charter continued
                        to increase its construction and land development loan
                        portfolio during the same time period. The fact that builders
                        were applying for fewer building permits should have been a
                        red flag to Charter to decrease its exposure to construction
                        and land development loans.

                        Figure 3. Building Permits Issued in New Mexico

                                                              20,000
                                   Number of Issued Permits




                                                              15,000


                                                              10,000


                                                               5,000


                                                                   -
                                                                       2004     2005     2006     2007     2008    2009
                                All of New Mexico                      13,436   16,363   14,063   9,788    5,958   4,890
                                Albuquerque and Santa Fe               5,993    5,862    4,834    3,322    1,437   1,082

                        Source: Bureau of Business and Economic Research, University of New Mexico.




Material Loss Review of Charter Bank                                                                      Page 7
                        Inadequate Capital Levels for Risk Profile

                        As early as the August 2003 examination, OTS
                        recommended that Charter increase its capital ratios in order
                        to ensure that the thrift could sustain significant volatility in
                        its earnings. In 2003, Charter agreed to maintain Tier 1
                        (core) leverage capital and risk-based capital ratios of 5.25
                        and 10.25 percent which were just above the minimum
                        amounts of 5 and 10 percent to be considered well-
                        capitalized under the prompt corrective action framework for
                        insured institutions. Although OTS examiners repeatedly
                        recommended increasing capital in their next two full-scope
                        examinations in 2004 and 2006, they did not require the thrift
                        to maintain higher capital until the September 2008
                        examination when OTS issued a matter requiring board
                        attention (MRBA) directing a core capital ratio of 7.5 percent
                        and a risk-based capital of 12 percent.

                        Historically, Charter had a strategy of operating the thrift at a
                        highly leveraged position and maintaining capital at minimum
                        levels required to be well-capitalized as shown in Table 1.

                        Table 1. Charter’s Capital Ratios

                                                           Regulatory Capital Ratios
                         Year                    2006                2007                2008             2009

                                                                            Total              Total            Total
                                            Tier 1  Total Risk   Tier 1     Risk     Tier 1    Risk   Tier 1    Risk
                                          Leverage   Based     Leverage    Based   Leverage   Based Leverage   Based
                        Charter                6.08     12.54       6.01     10.96     5.98     10.43   6.80    11.55
                        Required to be
                         "Well
                        Capitalized"          5.00      10.00      5.00     10.00      5.00     10.00   5.00     10.00
                        Source: Analysis from FDIC Statistics on Depository Institutions. Years 2006
                        through 2008 as of December 31. Year 2009 as of June 30.

                        Charter responded to OTS’s capital recommendations
                        stating that the thrift’s capital position complimented the
                        board’s strategy of maximizing return on equity. Also,
                        because Charter was organized as an S Corporation,
                        dividends needed to be paid to stockholders so that they
                        could meet their individual tax liabilities associated with the
                        pass-through of the thrift’s earnings. In our discussions with
                        the OTS Regional Director, he noted how difficult it is for S
                        Corporation thrifts to raise capital from outsiders because of
                        the restrictions on the types and numbers of stockholders.
                        On November 1, 2009, Charter converted from an S


Material Loss Review of Charter Bank                                                          Page 8
                        Corporation to a C Corporation in its efforts to attract outside
                        capital. Despite its conversion, Charter’s efforts to attract
                        outside capital were ineffective.

                        When the board agreed to maintain core capital of 5.25
                        percent and risk-based capital of 10.25 percent in 2003, it
                        also agreed to conduct periodic reviews of risk factors that
                        might threaten the thrift’s capital position. During such a
                        review in February 2007, the board noted that in addition to
                        the volatility of the valuation of the thrift’s mortgage servicing
                        rights (MSR) asset, carried at approximately $34 million as
                        of December 31, 2006, the thrift had recently assumed
                        additional risks in originating non-prime loans and lending
                        concentrations in CRE. Even though additional risks were
                        noted, the board concluded that maintaining the minimum
                        capital amounts to be considered well-capitalized was
                        appropriate. The board and management believed that as
                        long as Charter attained the well-capitalized ratios under the
                        PCA framework, then by definition, the thrift’s capital was
                        adequate. Contrary to Charter’s position, the 2006 CRE
                        Guidance reminded thrifts to hold capital commensurate with
                        the level and nature of their risks. Specifically, the 2006 CRE
                        Guidance suggests that institutions with inadequate capital
                        to serve as a buffer against unexpected losses from CRE
                        concentrations should develop plans to either reduce CRE
                        concentrations or raise capital. Charter did neither.

                        To fund Charter’s construction and land development
                        concentrations, management leveraged the balance sheet
                        with wholesale funding, including brokered deposits and
                        Federal Home Loan Bank (FHLB) advances. Charter’s
                        reliance on non-core deposits increased its liquidity risk. As
                        the thrift’s capital levels fell to below well-capitalized, Charter
                        could not accept or renew brokered deposits without specific
                        approval from the FDIC. As its financial condition further
                        worsened, Charter could not borrow additional funds from
                        the FHLB without additional collateral.




Material Loss Review of Charter Bank                                           Page 9
                        Inadequate Loan Underwriting and Credit Administration
                        Practices Led to Increase in Adversely Classified Assets

                        In the 2008 full-scope examination, OTS examiners noted
                        significant deterioration in asset quality due to Charter’s high
                        level of credit risk associated with its construction and land
                        development lending program. In both its 2008 full-scope
                        and 2009 limited-scope examinations, OTS examiners cited
                        inadequate loan underwriting and credit administration
                        practices that led to an increase in adversely classified
                        assets. The examinations focused on Charter’s largest
                        construction and land development loans. The examiners
                        cited deficiencies in the following areas:

                            •   Asset Classification
                            •   Impairment Analysis
                            •   Loan Modification

                        During the 2009 examination, OTS downgraded several
                        loans from special mention to substandard and identified
                        instances where Charter’s impairment analysis for impaired
                        loans was improper. Examiners were particularly concerned
                        with a practice where construction loan extensions that only
                        changed the maturity date were not documented through
                        formal extension or “change in terms” agreements. The
                        decision by management to not request formal extensions
                        was based on a clause in the construction promissory notes
                        which read, “In the event the improvements are not
                        completed within the initial loan terms, and a principal
                        balance remains outstanding on the day following the
                        original maturity date, the borrower agrees and consents to
                        one or more extensions of the maturity date.” 4 The
                        examiners were concerned that this practice may be used to
                        extend problem loans without an assessment of the
                        borrower’s ability to repay the loan.

                        This limited-scope examination began August 10, 2009, and
                        concluded on August 26, 2009. The examination identified
                        issues that prompted OTS to open a comprehensive full-
                        scope examination the following day. As part of the new
                        examination, examiners downgraded a significant number of
                        problem credits that were not previously classified by
                        Charter. In the June 2009 Thrift Financial Report (TFR), the
                        thrift reported $98.1 million in substandard assets. However,

4
    August 2009 Report of Examination.


Material Loss Review of Charter Bank                                         Page 10
                        as a result of the OTS downgrades, Charter reported
                        substandard assets of $159.4 million in its September 2009
                        TFR, which represented 252 percent of core capital plus the
                        ALLL.

                        The significant downgrades called into question the
                        effectiveness of Charter’s asset classification system. In
                        addition, the practice of automatically granting loan
                        extensions for construction loans significantly masked
                        problems developing in the construction and land
                        development loan portfolio for stalled development projects
                        or for completed construction projects that were not selling.

                        Mortgage Operations Division Contributed to Volatility
                        in Earnings and Capital Levels

                        Charter maintained a mortgage operations division
                        responsible for originating single family loans that were
                        generally sold with servicing rights retained by the thrift.
                        When the mortgage division sold these loans, the thrift
                        recorded a gain on the expected servicing revenue upon
                        sale of the loans and capitalized the amount as MSR. Until
                        2009, Charter amortized the MSR asset over the expected
                        lives of the underlying loans and reviewed the asset for
                        impairment at least annually. The asset value, which was
                        reported as high as $36 million in 2007, could be unstable
                        because its fair value was influenced by variables that could
                        change frequently, including national mortgage rates, credit
                        quality of borrowers, and estimated pre-payments. As early
                        as 2003, OTS encouraged Charter to retain more capital to
                        cushion the thrift against negative fluctuations in the MSR
                        asset. In 2008, Charter recorded a $9.7 million impairment
                        charge as the asset’s estimated fair value was lower than its
                        amortized cost.

                        The mortgage operations division also originated and
                        purchased sub-prime loans, which were also sold to
                        investors. In 2004, Charter opened mortgage production
                        offices in Idaho and Colorado that originated sub-prime
                        loans in various regions of the United States. By the time
                        Charter closed its sub-prime line of business in September
                        2008, 56 percent of the sub-prime loan portfolio was
                        collateralized by property in Florida where real estate values
                        were rapidly declining. In 2009, the thrift recorded a fair
                        value impairment charge of $11 million on its sub-prime loan
                        portfolio.


Material Loss Review of Charter Bank                                       Page 11
OTS’s Supervision of Charter
                        OTS’s supervision of Charter did not prevent an estimated
                        material loss of $246.1 million to the Deposit Insurance
                        Fund. OTS did not recognize the magnitude of weaknesses
                        in Charter’s growing CRE loan portfolio and increasing
                        concentrations in construction and land development lending
                        until it was too late. Charter had a strategy of operating the
                        thrift at a highly leveraged position. Examinations from 2003
                        through 2007 generally acknowledged this strategy, but OTS
                        failed to require Charter to increase its capital levels to
                        compensate for the risk until its September 2008
                        examination. In this examination, OTS began to see
                        weaknesses increasing in Charter’s CRE loan portfolio and
                        the effects of the recession on New Mexico. In the August
                        2009 examination, OTS found many underlying weaknesses
                        in the CRE loan portfolio that prompted significant
                        downgrades of credits and adjustments to the ALLL. The
                        adjustments ultimately resulted in Charter being critically
                        undercapitalized and later failing.

                        OTS’s Supervisory History and Actions

                        Table 2 summarizes the results of OTS’s safety and
                        soundness and limited examinations from 2003 until its
                        closure.




Material Loss Review of Charter Bank                                       Page 12
        Table 2. Summary of OTS’s Examinations and Enforcement Actions
         Date Started/                                          Number of      Informal/Formal
              Date       Examination      CAMELS      Number of Corrective       Enforcement
          Completed         Type           Rating      MRBAs     Actions            Actions
           8/25/2003      Full-scope      2/222112       2          13               None
          10/30/2003
           11/1/2004       Full-scope     2/222222        2           8              None
           1/19/2005
            3/6/2006       Full-scope     2/222222      None        None             None
            5/8/2006
           6/25/2007       Full-scope     2/222222      None        None             None
           8/18/2007
           9/15/2008       Full-scope     3/332222        9           9        Memorandum of
           11/7/2008                                                            understanding
                                                                               (MOU) 3/4/2009
                                                                                   (informal
                                                                                 enforcement
                                                                                    action)
           3/30/2009     Limited-scope    3/343222      None        None             None
           3/30/2009

           8/10/2009     Limited-scope    4/444332      None        None       Cease and desist
           8/26/2009                                                           order (C&D order)
                                                                                   11/20/2009
                                                                                     (formal
                                                                                  enforcement
                                                                                     action)
           8/27/2009       Full-scope     5/555555      None          16             None
           12/3/2009
           10/27/2009    Limited-scope    5/555554      None        None             None
            11/2/2009
        Source: OTS’s Report of Examinations (ROEs) and enforcement actions.


                         OTS Did Not Take Timely Action to Address Unsafe
                         Concentrations in High Risk Lending Areas

                         The thrift was building up CRE concentrations that were
                         identified as high risk in the 2006 CRE Guidance. OTS
                         commented in the June 2007 examination on the thrift’s
                         increasing risk profile due to higher volumes of construction
                         lending, lot lending, and CRE lending. However, these
                         comments regarding risk exposure were minimized by other
                         OTS conclusions in the same examination report that asset
                         quality was satisfactory and capital was maintained at an
                         adequate level commensurate with Charter’s risk profile.
                         With respect to concentrations, the June 2007 examination
                         concluded that management was satisfactorily identifying,
                         monitoring, controlling, and reporting to the board the thrift’s
                         concentration risks.

                         The June 2007 examination missed opportunities to address
                         the thrift’s growing concentration risks in construction and



Material Loss Review of Charter Bank                                                    Page 13
                        land development loans. This examination’s conclusions
                        were also inconsistent with the 2006 CRE Guidance. OTS
                        did not formally address CRE concentrations with Charter
                        until it issued a letter to the thrift on July 17, 2009,
                        addressing guidance in OTS’s CEO Letter 311. 5 The letter
                        identified concentrations of credit risk in construction, land,
                        and non-residential mortgage loans. OTS notified Charter
                        that the board must support and justify the safety and
                        soundness of Charter’s concentrations of credit risks in the
                        current environment and to reevaluate the thrift’s
                        concentration risks. Charter was to provide OTS with the
                        results of their review with respect to these matters and the
                        steps taken by the board to reduce and manage the
                        concentration risks. The July 17, 2009, communication from
                        OTS on CRE concentrations was too late to address the
                        concentrations which had already elevated the thrift’s non-
                        performing assets and were a major source of examination
                        concerns in the August 2009 examination.

                        Had OTS examiners followed guidance contained in the
                        2006 CRE Guidance in the June 2007 examination, we
                        believe examiners would have noted exceptions in that
                        examination and directed Charter to assess its CRE
                        concentration exposure and establish risk management
                        policies and procedures to address the concentration risks.
                        In the September 2008 examination, the examiners reacted
                        to growing problem assets by placing additional
                        requirements on capital levels, and issuing several MRBAs
                        concerning asset quality. The focus of the September 2008
                        exam was to address problem assets rather than making
                        recommendations concerning the effectiveness of risk
                        management practices over CRE concentration risk.

                        OTS Did Not Follow Its Sampling Guidance for the
                        Review of Non-Homogeneous Loans

                        OTS did not follow its sampling guidance for its review of
                        non-homogeneous loans in the June 2007 and September
                        2008 examinations. In the August 2009 examination, OTS
                        significantly increased the scope of its review of non-
                        homogeneous loans compared to the loans reviewed in the
                        prior two examinations and found many underlying
                        weaknesses in the non-homogeneous loan portfolio that

5
 Chief Executive Officer (CEO) Letter No. 311, Risk Management: Asset and Liability
Concentrations (July 9, 2009).


Material Loss Review of Charter Bank                                          Page 14
                        prompted significant downgrades of credits and adjustments
                        to the ALLL. The adjustments ultimately resulted in Charter
                        being critically undercapitalized and later failing. Table 3
                        summarizes the percentage of the non-homogeneous loan
                        portfolio reviewed by OTS in each examination.

                        Table 3. Percentage of Non-Homogeneous Loans
                        Reviewed
                                6/25/2007                      21%
                                9/15/2008                      27%
                                8/10/2009                      63%

                            Source: OTS Examinat ion w orkpapers.



                        The OTS Examination Handbook states that the combined
                        sequential and independent samples should, at a minimum,
                        total 30 percent to 50 percent of the aggregate dollar volume
                        of non-homogeneous assets. The 30 percent minimum
                        should be used only where risk is minimal and conditions
                        ideal, such as thrifts with excellent policies and controls, a
                        history of no significant asset quality problems, and little
                        recent growth. 6

                        Based on OTS sampling guidance, a minimum scope for
                        loan review in the June 2007 and September 2008
                        examinations should have been 30 percent at the outset of
                        the examination. Many of the credit underwriting and
                        administration deficiencies noted in the August 2009
                        examination were evident in the September 2008
                        examination and, in retrospect, warranted increasing loan
                        review scope above the minimum scope. Had a larger scope
                        for loan review been performed in the September 2008
                        examination, the underwriting weaknesses in the CRE loan
                        portfolio likely would have resulted in higher levels of
                        adversely classified assets in that examination.

                        In the September 2008 examination, OTS downgraded
                        approximately $10 million in loans from “pass” or special
                        mention to substandard. As a result, substandard loans
                        comprised 61 percent of capital plus ALLL.




6
    OTS Examination Handbook, section 209.


Material Loss Review of Charter Bank                                       Page 15
                        In our discussions with the examiner-in-charge for the 2008
                        examination, he stated that examination resources were
                        scarce during this examination. While he was surprised that
                        the examiners’ review fell slightly short of the 30 percent
                        minimum sampling coverage, he stated that he simply did
                        not have the necessary resources to increase the loan
                        review scope beyond the 27 percent; even though he stated
                        that the risks in the portfolio would have justified a larger
                        scope. OTS issued a memorandum of understanding (MOU)
                        dated March 4, 2009, to address the concerns raised in the
                        September 2008 examination. In addition, OTS performed a
                        limited-scope examination in February 2009 that focused on
                        asset quality. This examination resulted in a downgrade of
                        the CAMELS rating for the asset quality component from a 3
                        to a 4.

                        It was not until the August 2009 examination that OTS
                        concluded that Charter had inaccurately reported problem
                        assets, had inadequate reserves, and reported inflated
                        earnings and an overstated capital position. Consequently,
                        OTS mandated adjustments which ultimately resulted in
                        Charter being undercapitalized. This action also prompted
                        PCA.

                        OTS Did Not Require Additional Capital Early Enough to
                        Compensate for Higher Risk Activities

                        OTS Examination Handbook, section 120 outlines
                        considerations for capital adequacy. The various OTS capital
                        requirements assume that a thrift primarily engages in
                        traditional, relatively low risk activities. Higher risk activities
                        require more capital, especially if the activities are conducted
                        at significant concentration levels.

                        Charter had a strategy of operating the thrift at a highly
                        leveraged position. Examinations from 2003 through 2007
                        generally acknowledged this strategy, but OTS did not cite
                        this as a concern or require increased capital levels to
                        compensate for growing concentrations in higher risk loans.
                        OTS examiners told us that as long as Charter was well-
                        capitalized, they did not have the ability to require more
                        capital. However, under existing OTS examination guidance,
                        examiners should encourage more capital in response to
                        higher risk activities. Therefore, OTS examiners could have
                        done more to ensure the safety and soundness of Charter.



Material Loss Review of Charter Bank                                           Page 16
                        OTS did not direct Charter to increase capital levels in
                        response to heightened risk until the September 2008
                        examination, when the extent of asset quality problems
                        became evident to examiners. The September 2008
                        examination, in response to high levels of classified assets,
                        included an MRBA that Charter maintain a Tier 1/risk-based
                        capital ratio of 7.5 percent and a total risk-based capital ratio
                        of 12 percent from March 31, 2009, until December 31,
                        2009, with increases to 8 percent and 12.5 percent after
                        December 31, 2009. Charter was unable to achieve these
                        capital levels.

                        OTS Enforcement Actions

                        OTS took the following enforcement actions against Charter.

                            •   As previously stated, on March 4, 2009, OTS issued an
                                MOU, an informal enforcement action, to address unsafe
                                and unsound practices and conditions at Charter, such
                                as its precarious capital position and deteriorating asset
                                quality, identified during the full-scope examination that
                                began in September 2008. Among other things, the
                                MOU required the thrift to achieve and maintain a Tier
                                1/risk-based capital ratio of 6.25 percent and a total risk-
                                based capital ratio of 11 percent by June 30, 2009, with
                                increases to 6.5 percent and 11.5 percent at December
                                31, 2009, rather than the minimum requirements of 6
                                percent and 10 percent, to be PCA well-capitalized. 7 The
                                capital levels set forth in the MOU were less than the
                                capital levels prescribed in the September 2008 OTS
                                examination. These levels were a result of Charter’s
                                capital ratios dropping in December 2008 due to
                                recognition of a large impairment in the value of MSR.
                                After the impairment recognition, OTS agreed to adjust
                                the capital ratio targets. Regardless, Charter was unable
                                to achieve the lower capital levels prescribed by the
                                MOU.
7
  The MOU also required the thrift to (1) submit a 2-year capital plan by March 31, 2009;
(2) submit quarterly variance reports and monthly liquidity reports; (3) refrain from accepting
new brokered deposits w ithout OTS w ritten approval; (3) refrain from capital distributions
w ithout OTS w ritten approval; (4) revise its asset classification policy and submit quarterly
ALLL reports; (5) submit quarterly reports on the status of classified assets; (6) submit
impairment analysis procedures and obtain quarterly appraisals on all real estate loans w ith
balances greater than $1 million and appraisals more than one-year old; (7) adopt and
submit a loan modification policy; and (8) obtain a third-party loan review report of all
construction, construction and land development, permanent land and nonresidential real
estate, and commercial loans w ith balances greater than $50,000.


Material Loss Review of Charter Bank                                               Page 17
                            •   On November 4, 2009, OTS issued a liquidity directive
                                directing the thrift to take all necessary steps to increase
                                funding sources. This directive was in response to
                                Charter becoming critically undercapitalized, which
                                subjected the thrift to further lending restrictions by the
                                Federal Home Loan Bank of Dallas and the Federal
                                Reserve Bank of Kansas City.

                            •   On November 20, 2009, OTS executed a Stipulation and
                                Consent to the issuance of a C&D order in response to
                                its limited-scope examination of October 27, 2009, which
                                downgraded Charter’s composite CAMELS rating to 5.
                                The C&D order required Charter to achieve and maintain
                                a Tier 1/risk-based capital ratio of 4 percent and a total
                                risk-based capital ratio of 8 percent by December 31,
                                2009. 8

                        PCA Was Taken by OTS as Charter’s Capital Levels Fell

                        The purpose of PCA is to resolve the problems of insured
                        depository institutions with the least possible long-term loss to
                        the Deposit Insurance Fund. 9 PCA provides federal banking
                        agencies with the authority to take certain actions when an
                        institution’s capital drops to certain levels. PCA also gives
                        regulators flexibility based on criteria other than capital to help
                        reduce deposit insurance losses caused by unsafe and unsound
                        practices. OTS took the following PCA actions against Charter:

                            •   On October 23, 2009, OTS issued a PCA Notification
                                notifying Charter that the thrift was deemed to be
                                undercapitalized based on information obtained during
                                the August 27, 2009, examination. Consequently, OTS
                                directed the thrift to file a capital restoration plan by
                                November 9, 2009, and comply with mandatory

8
  The C&D order also required the thrift to (1) submit a capital augmentation plan by
November 30, 2009, outlining plans for achieving the capital levels including consideration
of different scenarios based on asset quality and anticipated timeline for raising capital; (2)
submit daily liquidity reports; (3) evaluate and classify its asset s and establish ALLL in
accordance w ith regulations and OTS guidance; (4) submit a CRE concentration report by
November 30, 2009; (5) limit asset grow th; (6) not accept brokered deposits; (7) not make
any capital distributions w ithout OTS w ritten approval; (8) not make prohibited severance
and indemnification payments; (9) notify OTS of any changes in its directors and senior
officers; (10) not make any changes in employment contracts and compensation
agreements w ithout OTS approval; (11) not enter into contracts outside the normal course
of business; and (12) not enter any new transactions w ith affiliates.
9
  12 U.S.C. Sec. 1831o and 12 C.F.R. Sec. 6.


Material Loss Review of Charter Bank                                                Page 18
                                 restrictions on undercapitalized institutions set forth in 12
                                 U.S.C. Section 1831o.

                            •    On October 29, 2009, OTS issued a PCA Notification
                                 notifying Charter that the thrift was deemed to be
                                 critically undercapitalized after OTS directed Charter to
                                 record an additional $65.2 million to the ALLL provision.
                                 As a result, OTS directed the thrift to file a capital
                                 restoration plan by November 9, 2009, and comply with
                                 mandatory restrictions on critically undercapitalized
                                 institutions set forth in 12 U.S.C. Section 1831o. The
                                 capital restoration plan required a description of the
                                 steps Charter would take to correct the unsafe or
                                 unsound condition or practice, and required performance
                                 guarantees by each company that directly or indirectly
                                 controlled the thrift. Charter filed a capital restoration
                                 plan on November 9, 2009. OTS rejected the plan on
                                 November 24, 2009, after concluding that it would not
                                 adequately capitalize the thrift in a reasonable amount of
                                 time.

                             •   On January 20, 2010, OTS issued a PCA Directive
                                 requiring Charter to address the thrift’s failure to
                                 maintain at least adequately capitalized status as
                                 defined in 12 C.F.R. Section 565.5. The PCA Directive
                                 required the thrift to be recapitalized by an acquisition by
                                 another financial institution or holding company, the sale
                                 of substantially all assets and liabilities, or a cash capital
                                 infusion and reach adequately capitalized status within
                                 30 days after the effective date of the directive.

                        We concluded that OTS appropriately implemented PCA as
                        Charter’s capital levels fell below adequately capitalized. The
                        PCA actions taken, however, did not prevent the thrift’s failure.




Material Loss Review of Charter Bank                                            Page 19
                        OTS Failed Thrift Institution Review

                        In accordance with OTS policy, an internal review of Charter’s
                        failure was performed to determine the causes of the failure,
                        evaluate the supervision exercised by OTS, and provide
                        recommendations based upon the findings of the review. 10 The
                        OTS review determined that Charter’s failure was caused by
                        excessive concentration in higher risk loans, primarily
                        construction and land development loans, deterioration in asset
                        quality caused by the downturn in the national economy, and
                        inadequate capital levels.

                        Regarding supervision, the review found that:

                            •   The thrift’s capital deficiency with respect to its
                                concentration risk was not properly evaluated.

                            •   Opportunities to curtail growth in higher risk assets
                                and impose higher minimum capital requirements
                                were missed.

                            •   Risks posed by increasing levels of higher risk loans
                                and management’s high leverage strategies were not
                                adequately addressed.

                        The OTS report made the following recommendations:

                        1. Examination and supervisory staff should impose higher
                           capital requirements and/or require prudent limits for
                           higher risk lending concentrations.

                        2. For thrifts with relatively high levels of concentration risk,
                           examination and regulatory staff should ascertain,
                           evaluate, and document management’s contingency plan
                           to reduce or mitigate the concentration risk in the event of
                           adverse market conditions. Regulatory staff should
                           consistently and carefully consider management’s ability
                           to execute plans under less than satisfactory market
                           conditions.
10
   OTS policy requires that an internal assessment be conducted w hen a thrift fails. That
assessment, referred to as a failed thrift institution review , is performed by st aff
independent of the region responsible for supervisory oversight of the failed thrift. The
report is review ed and signed by OTS’ s deputy director of examinations, supervision, and
consumer protection. OTS’ s Southeast Region initiated an internal review of Charter
follow ing its failure in January 2010. The scope of the review focused primarily on OTS’ s
supervision from November 2004 to January 2010.


Material Loss Review of Charter Bank                                              Page 20
                        Our material loss review affirms the findings and
                        recommendations of OTS’s internal review. Excessive
                        concentrations of higher risk loans were clearly a major
                        cause of Charter’s failure.

Recommendations
                        As a result of our material loss review of Charter, we
                        recommend that OTS do the following:

                        1. Ensure that action is taken on the recommendations
                           made in the OTS failed thrift institution review for Charter
                           that was issued August 4, 2010.

                            Management Response
                            OTS responded that in reaction to other failed bank
                            reviews, it has issued additional examination guidance to
                            staff to impose higher capital requirements and/or require
                            prudent limits for higher risk lending concentrations. Also,
                            since May 2008, OTS has issued a variety of examiner
                            guidance bulletins addressing lessons learned from
                            previous internal failed bank reviews.

                            Mayer Hoffman McCann P.C. Comment
                            The implementation of the recommendation is the
                            responsibility of OTS management.

                        2. Reemphasize to examiners and supervisors the
                           importance of following sampling guidance in their
                           reviews of non-homogeneous loans, including situations
                           where minimum sample sizes should be increased due to
                           the risks inherent in the loan portfolio, or the results of
                           their loan reviews including significant downgrades to
                           classified asset categories.

                            Management Response
                            OTS agreed with our recommendation.

                            Mayer Hoffman McCann P.C. Comment
                            The implementation of the recommendation is the
                            responsibility of OTS management.

                        3. Work with its regulatory partners to determine whether to
                           propose legislation and/or change regulatory guidance to
                           establish limits or other controls for concentrations that


Material Loss Review of Charter Bank                                         Page 21
                            pose an unacceptable safety and soundness risk and
                            determine an appropriate range of examiner response to
                            high risk concentrations.

                            Management Response
                            OTS responded that it issued CEO Letter 311 in July
                            2009 addressing increased regulatory scrutiny for
                            concentration risk management, including requiring board
                            established limits and controls. The letter communicated
                            that OTS will pursue appropriate corrective action or
                            enforcement action when an institution does not maintain
                            appropriate concentration limits or takes excessive risks.
                            In addition, OTS supports all opportunities to promote
                            safe and sound business practices on an inter-agency
                            basis until the implementation of the Dodd-Frank Act that
                            transfers OTS responsibilities to other respective federal
                            banking regulatory agencies.

                            Mayer Hoffman McCann P.C. Comment
                            The implementation of the recommendation is the
                            responsibility of OTS management.




Material Loss Review of Charter Bank                                       Page 22
                        Appendix 1
                        Objectives, Scope, and Methodology



                        We performed a material loss review of the failure of Charter Bank
                        (Charter) under contract with the Department of the Treasury Office of
                        Inspector General (Treasury OIG). Our objectives were to determine
                        the causes of Charter’s failure and assess its supervision by the Office
                        of Thrift Supervision (OTS). At the time of Charter’s failure on January
                        22, 2010, the Federal Deposit Insurance Corporation (FDCI) estimated
                        that the loss to the Deposit Insurance Corporation was $201.9 million.
                        As of February 28, 2011, FDIC revised its initial estimated loss to the
                        Deposit Insurance Fund to $246.1 million. FDIC also estimated that
                        Charter’s failure resulted in a loss of $304,000 to its Transaction
                        Account Guarantee Program.

                        Our material loss review of Charter was conducted in response to
                        section 38(k) of the Federal Deposit Insurance Act. 11 This section
                        provides that if the Deposit Insurance Fund incurs a material loss with
                        respect to an insured depository institution, the inspector general for
                        the appropriate federal banking agency is to prepare a report to the
                        agency that:

                        •   ascertains why the institution’s problems resulted in a loss to the
                            insurance fund;
                        •   reviews the agency’s supervision of the institution, including its
                            implementation of the prompt corrective action (PCA) provisions of
                            section 38 (k); and
                        •   makes recommendations for preventing any such loss in the
                            future. 12

                        The law also requires the inspector general to complete the report
                        within 6 months after it becomes apparent that a material loss has
                        been incurred.

                        To accomplish our review, we conducted fieldwork at OTS’s
                        headquarters in Washington, D.C. and its Western Region Office in
                        Irving, Texas. We also interviewed officials at the FDIC’s Division of
                        Supervision and Consumer Protection in Dallas, Texas, and conducted
                        interviews of OTS personnel who worked on the thrift’s examinations

11
  12 U.S.C. § 1831o(k).
12
   At the time of Charter’ s failure, section 38(k) defined a material loss as a loss to the Deposit
Insurance Fund that exceeded the greater of $25 million or 2 percent of the institution’ s total assets.
Amended by the Dodd-Frank Wall Street Reform and Consumer Protection Act, effective July 21,
2010, section 38(k) now defines a material loss as a loss to the Deposit Insurance Fund in excess of
$200 million for calendar years 2010 and 2011, $150 million for calendar years 2012 and 2013, and
$50 million for calendar year 2014 and thereafter (w ith a provision that the threshold can be raised
temporarily to $75 million if certain conditions are met).


Material Loss Review of Charter Bank                                              Page 23
                        Appendix 1
                        Objectives, Scope, and Methodology



                        and supervision. We also reviewed thrift records at the FDIC Division
                        of Resolution and Receivership in Irvine, California. We conducted our
                        fieldwork from April 2010 through June 2010.

                        To assess the adequacy of OTS’s supervision of Charter, we
                        determined (1) when OTS first identified Charter’s safety and
                        soundness problems, (2) the gravity of the problems, and (3) the
                        supervisory response OTS took to get the thrift to correct the problems.
                        We also assessed whether OTS (1) might have discovered problems
                        earlier; (2) identified and reported all the problems; and (3) issued
                        comprehensive, timely, and effective enforcement actions that dealt
                        with any unsafe or unsound activities. Specifically, we performed the
                        following work:

                            •   We determined that the time period relating to OTS’s
                                supervision of Charter covered by our audit would be from
                                January 1, 2003, through the thrift’s failure on January 22, 2010.
                                This period included five full-scope safety and soundness
                                examinations prior to OTS’s March 2009 designation of Charter
                                as a trouble institution and three limited-scope examinations.

                            •   We reviewed OTS’s supervisory files and records for Charter
                                from November 2004 through January 2010. We analyzed
                                examination reports, supporting work papers, and related
                                supervisory and enforcement correspondence. We performed
                                these analyses to gain an understanding of the problems
                                identified, the approach and methodology OTS used to assess
                                the thrift’s condition, and the regulatory action OTS used to
                                compel thrift management to address deficient conditions. We
                                did not conduct an independent or separate detailed review of
                                the external auditor’s work or associated workpapers other than
                                those incidentally available through the supervisory files.

                            •   We interviewed and discussed various aspects of the
                                supervision of Charter with OTS officials and examiners to
                                obtain their perspectives on the thrift’s condition and the scope
                                of the examinations.

                            •   We interviewed FDIC officials responsible for monitoring Charter
                                for federal deposit insurance purposes.

                            •   We selectively reviewed Charter documents that had been
                                taken by FDIC and inventoried by FDIC Division of Resolutions
                                and Receiverships personnel.



Material Loss Review of Charter Bank                                         Page 24
                        Appendix 1
                        Objectives, Scope, and Methodology



                            •   We assessed OTS’s actions based on its internal guidance and
                                requirements of the Federal Deposit Insurance Act. 13

                        We conducted this performance audit in accordance with generally
                        accepted government auditing standards. Those standards require that
                        we plan and perform the audit to obtain sufficient, appropriate evidence
                        to provide a reasonable basis for our findings and conclusions based
                        on our audit objectives. We believe that the evidence obtained
                        provides a reasonable basis for our findings and conclusions based on
                        our audit objectives.




13
     12 U.S.C. § 1811 et seq.


Material Loss Review of Charter Bank                                       Page 25
                        Appendix 2
                        Background



                        History of Charter Bank

                        Charter Bank (Charter) was chartered in September 1986 as a savings
                        association in Santa Fe, New Mexico. The thrift was wholly owned by a
                        one-bank holding company, Charter Companies, Inc., whose common
                        stock was owned and controlled by a single family. At its largest,
                        Charter operated eight full-services branches in New Mexico and
                        maintained loan production offices in New Mexico, Idaho, and
                        Colorado. Charter failed on January 22, 2010, as a result of holding
                        excessive concentrations in CRE loans during a downturn in the
                        national economy exacerbated by a strategy of maintaining inadequate
                        capital levels for its risk profile. In addition, the thrift’s mortgage
                        operations division contributed to the thrift’s earnings volatility.

                        Types of Examinations Conducted by OTS

                        OTS conducts various types of examinations, including safety and
                        soundness, compliance, and information technology. Table 4 shows
                        the number of OTS staff hours spent examining Charter from 2004 to
                        2009.

                        Table 4: Number of OTS Hours Spent on Examining Charter, 2004-2009

                                                                     Number of
                                               Examination          Examination
                                                Start Date            Hours*
                                                11/1/2004                1,227
                                                 3/6/2006                  908
                                                6/25/2007                  921
                                                9/15/2008                1,592
                                                3/30/2009                1,545
                                                     Total               6,193

                                                Source: OTS.
                                             *Hours are totaled for safety and soundness, compliance, and
                                              information technology examinations.


                        OTS must conduct full-scope examinations of insured thrifts either
                        once every 12 months or once every 18 months, depending on the size
                        of the thrift and other factors. Charter was on a 12-month cycle. During
                        a full-scope examination, examiners conduct an onsite examination
                        and rate all CAMELS components. OTS then assigns the thrift a



Material Loss Review of Charter Bank                                                Page 26
                        Appendix 2
                        Background



                        CAMELS composite rating based on its assessment of the thrift’s
                        overall condition and OTS’s level of supervisory concern.

                        Enforcement Actions Available to OTS

                        OTS performs various examinations of thrifts that result in the issuance
                        of reports of examinations identifying areas of concern. OTS uses
                        informal and formal enforcement actions to address violations of laws
                        and regulations and to address unsafe and unsound practices.

                        Informal Enforcement Actions

                        When a thrift’s overall condition is sound but it is necessary to obtain
                        written commitments from its board of directors or management to
                        ensure that identified problems and weaknesses will be corrected,
                        OTS may use informal enforcement actions. OTS commonly uses
                        informal enforcement actions for problems in well- or adequately-
                        capitalized thrifts and for thrifts with a composite rating of 1, 2, or 3.

                        Informal actions notify a thrift’s board and management that OTS has
                        identified problems which warrant attention. A record of informal action
                        is beneficial in case formal action is necessary later.

                        The effectiveness of informal action depends in part on the willingness
                        and ability of a thrift to correct deficiencies that OTS notes. If a thrift
                        violates or refuses to comply with an informal action, OTS cannot
                        enforce compliance in federal court or assess civil money penalties for
                        noncompliance. However, OTS may initiate more severe enforcement
                        actions against a noncompliant thrift.

                        Informal enforcement actions include supervisory                directives,
                        memoranda of understanding, and board resolutions.

                        Formal Enforcement Actions

                        Formal enforcement actions are enforceable under the Federal Deposit
                        Insurance Act. They are appropriate when a thrift has significant
                        problems, especially when there is a threat of harm to the thrift,
                        depositors, or the public. OTS uses formal enforcement actions when
                        informal actions are considered inadequate, ineffective, or otherwise
                        unlikely to secure correction of safety and soundness or compliance
                        problems.




Material Loss Review of Charter Bank                                         Page 27
                        Appendix 2
                        Background



                        OTS can assess civil money penalties against thrifts and individuals for
                        noncompliance with a formal agreement or final orders. OTS can also
                        request a federal court to require a thrift to comply with an order.
                        Unlike informal actions, formal enforcement actions are public.

                        Formal enforcement actions include cease and desist orders, civil
                        money penalties, and prompt corrective action directives.

                        OTS Enforcement Guidelines

                        Considerations for determining whether to use informal action or formal
                        action include the following:

                        •   the extent of actual or potential damage, harm, or loss to the thrift
                            because of the action or inaction;

                        •   whether the thrift has repeated the illegal action or unsafe or
                            unsound practice;

                        •   the likelihood that the conduct will occur again;

                        •   the thrift’s record for taking corrective action in the past;

                        •   the capability, cooperation, integrity, and commitment of the thrift’s
                            management, board of directors, and owners to correct identified
                            problems;

                        •   the effect of the illegal, unsafe, or unsound conduct on other
                            financial institutions, depositors, or the public;

                        •   the examination rating of the thrift;

                        •   whether the thrift’s condition is improving or deteriorating; and

                        •   the presence of unique circumstances.

                        OTS Assessments Paid by Charter

                        OTS funds its operations in part through semi-annual assessments on
                        thrifts. OTS determines the assessment by adding together three
                        components reflecting the thrift’s size, condition, and complexity. OTS
                        computes the size component by multiplying the thrift’s total assets, as
                        reported on the thrift financial report (TFR), by the applicable
                        assessment rate. The condition component is a percentage of the size


Material Loss Review of Charter Bank                                            Page 28
                        Appendix 2
                        Background



                        component and is imposed on thrifts that have a 3, 4, or 5 CAMELS
                        composite rating. OTS imposes a complexity component if (1) a thrift
                        administers more than $1 billion in trust assets, (2) the outstanding
                        balance of assets fully or partially covered by recourse obligations or
                        direct credit substitutes exceeds $1 billion, or (3) the thrift services over
                        $1 billion of loans for others. OTS calculates the complexity component
                        by multiplying set rates by the amounts by which the thrift exceeds
                        each threshold. Table 5 shows the assessments that Charter paid to
                        OTS from 2005 through 2009.
                        Table 5: Assessments Paid by Charter to OTS, 2005–2009
                        Billing Period            Exam Rating        Amount Paid
                        1/1/2005–6/30/2005            2                $ 106,308
                        7/1/2005–12/31/2005           2                  114,142
                        1/1/2006–6/30/2006            2                  127,213
                        7/1/2006–12/31/2006           2                  133,884
                        1/1/2007–6/30/2007            2                  144,534
                        7/1/2007–12/31/2007           2                  149,987
                        1/1/2008–6/30/2008            2                  159,315
                        7/1/2008–12/31/2008           2                  171,703
                        1/1/2009–6/30/2009            3                  248,378
                        7/1/2009–12/31/2009           3                  243,601
                        Total                                         $1,599,065
                        Source: OTS.




Material Loss Review of Charter Bank                                           Page 29
                        Appendix 3
                        Glossary


Adversely classified asset             An asset rated as substandard, doubtful, or loss.
                                       Substandard assets are inadequately protected by the
                                       current worth and the paying capacity of the obligor or of
                                       the collateral pledged, if any. A doubtful asset has all the
                                       weaknesses of a substandard asset with the added
                                       characteristic that the weaknesses make collection or
                                       liquidation in full questionable and improbable. A loss
                                       asset is considered uncollectible and of such little value
                                       that continuation as a bankable asset is not warranted.

Allowance for loan and                 An estimate of uncollectible amounts that is used to
lease losses                           reduce the book value of loans and leases to the amount
                                       that is expected to be collected. It is established in
                                       recognition that some loans in the institution’s overall
                                       loan and lease portfolio will not be repaid.

Board resolution                       A document designed to address one or more specific
                                       concerns identified by the Office of Thrift Supervision and
                                       adopted by a thrift’s board of directors.

Brokered deposit                       Any deposit that is obtained, directly or indirectly, from a
                                       deposit broker. The bank or thrift solicits deposits by
                                       offering rates of interest that are significantly higher than
                                       the rates offered by other insured depository institutions
                                       in its normal market area. Use of brokered deposits is
                                       limited to well-capitalized insured depository institutions
                                       and, with a waiver from the Federal Deposit Insurance
                                       Corporation, to adequately capitalized institutions.
                                       Undercapitalized institutions are not permitted to accept
                                       brokered deposits. (See 12 U.S.C. § 1831(f) and 12
                                       C.F.R. 337.6.)

CAMELS                                 An acronym for performance rating components for
                                       financial institutions: capital adequacy, asset quality,
                                       management, earnings, liquidity, and sensitivity to market
                                       risk. Numerical values range from 1 to 5, with 1 being the
                                       best rating and 5 being the worst.

Capital restoration plan               A plan submitted to the appropriate federal banking
                                       agency by an undercapitalized insured depository
                                       institution. A capital restoration plan specifies the steps
                                       the insured depository institution is to take to become
                                       adequately capitalized, the levels of capital to be attained
                                       during each year in which the plan is in effect, how the
                                       institution is to comply with the restrictions or



Material Loss Review of Charter Bank                                          Page 30
                        Appendix 3
                        Glossary


                                       requirements then in effect, the types and levels of
                                       activities in which the institution is to engage, and any
                                       other information that the federal banking agency may
                                       require.

Cease and desist order                 A type of formal enforcement action. A cease and desist
                                       order issued by the Office of Thrift Supervision normally
                                       requires the thrift to correct a violation of a law or
                                       regulation or an unsafe or unsound practice. The Office
                                       of Thrift Supervision may issue a cease and desist order
                                       in response to violations of federal banking, securities, or
                                       other laws by thrifts or individuals or if it believes that an
                                       unsafe and unsound practice or violation is about to
                                       occur.

Commercial real estate loan            A loan for real property where the primary or significant
                                       source of repayment is from rental income associated
                                       with the property or the proceeds of the sale, refinancing,
                                       or permanent financing of the property. Commercial real
                                       estate loans include construction and real estate
                                       development loans, land development loans, and
                                       commercial property loans (e.g., for office buildings and
                                       shopping centers).

Compliance                             The part of a financial institution examination that
                                       includes an assessment of how well the institution
                                       manages compliance with consumer protection and
                                       public interest laws and regulations, including the Bank
                                       Secrecy Act.

Concentration                          As defined by the Office of Thrift Supervision, a group of
                                       similar types of assets or liabilities that, when
                                       aggregated, exceed 25 percent of a thrift’s core capital
                                       plus allowance for loan and lease losses. Concentrations
                                       include direct, indirect, and contingent obligations or
                                       large purchases of loans from a single counterparty.

Concentration risk                     Risk in a loan portfolio that arises when a
                                       disproportionate number of an institution’s loans are
                                       concentrated in one or a small number of financial
                                       sectors, geographical areas, or borrowers.

Construction and land                  Loans, secured by real estate, made to finance (a)
development loans                      land development (i.e., the process of improving land –
                                       laying sewers, water pipes, etc.) prior to erecting new



Material Loss Review of Charter Bank                                           Page 31
                        Appendix 3
                        Glossary


                                       structures or (b) the on-site construction of industrial,
                                       commercial, residential, or farm buildings.

Direct credit substitute               An institution’s guaranty, purchase, or assumption of a
                                       recourse exposure from another organization. For
                                       example, a purchased subordinated security is a direct
                                       credit substitute.

Division of Resolutions                A division within the Federal Deposit Insurance
and Receiverships                      Corporation that is charged with resolving failing and
                                       failed financial institutions, including ensuring that
                                       depositors have prompt access to their insured funds.

Federal Home Loan Bank                 A system of 12 regional cooperative banks created by
System                                 Congress from which member institutions borrow funds
                                       to     finance     housing,      economic    development,
                                       infrastructure, and jobs. The system provides liquidity to
                                       member institutions that hold mortgages in their portfolios
                                       and facilitates the financing of mortgages by making low-
                                       cost loans, called advances, to members. Advances with
                                       a wide variety of terms to maturity, from overnight to
                                       long-term, are available to members and are
                                       collateralized. Advances are designed to prevent any
                                       possible loss to Federal Home Loan Banks, which also
                                       have a super lien (a lien senior or superior to all current
                                       and future liens on a property or asset) when institutions
                                       fail. To protect their position, Federal Home Loan Banks
                                       have a claim on any of the additional eligible collateral in
                                       a failed institution. In addition, the Federal Deposit
                                       Insurance Corporation has a regulation that reaffirms the
                                       priority of Federal Home Loan Banks, which can demand
                                       prepayment of advances when institutions fail.

Formal agreement                       A type of formal enforcement action authorized by
                                       statute. Formal agreements are generally more severe
                                       than informal actions and are disclosed to the public.
                                       Formal actions are also enforceable through the
                                       assessment of civil money penalties.

Full-scope examination                 Examination activities performed during the supervisory
                                       cycle that (1) are sufficient in scope to assign or confirm
                                       an institution’s CAMELS composite and component
                                       ratings, (2) satisfy core assessment requirements,
                                       (3) result in conclusions about an institution’s risk profile,



Material Loss Review of Charter Bank                                           Page 32
                        Appendix 3
                        Glossary


                                       (4) include onsite supervisory activities, and (5) generally
                                       conclude with the issuance of a report of examination.

Generally accepted                     A widely accepted set of rules, standards and
accounting principles                  procedures for reporting financial information established
                                       by the Financial Accounting Standards Board.

Impairment                             Decline in fair value of a loan below the amortized cost
                                       basis.

Information technology                 An examination that includes review and evaluation of
examination                            the overall management of information systems used by
                                       a thrift and of the effectiveness of the internal audit and
                                       security functions for those systems.

Loan production offices                Banking offices that take loan applications and arrange
                                       financing for corporations and small businesses but that
                                       do not accept deposits. Loan applications taken by loan
                                       production offices are subject to approval by the lending
                                       institution.

Matter requiring                       A practice noted during an Office of Thrift Supervision
board attention                        examination of a thrift that deviates from sound
                                       governance, internal control, and risk management
                                       principles. The matter, if not addressed, may adversely
                                       affect the thrift’s earnings or capital, risk profile, or
                                       reputation or may result in substantive noncompliance
                                       with laws or regulations, internal policies or processes,
                                       supervisory guidance, or conditions imposed in writing in
                                       connection with the approval of any application or other
                                       request by the institution. Although matters requiring
                                       board attention are not formal enforcement actions, the
                                       Office of Thrift Supervision requires that thrifts address
                                       them. A thrift’s failure to do so may result in a formal
                                       enforcement action.

Mortgage banking                       The term refers to the origination, sale and servicing of
                                       mortgages. A mortgage banker takes an application from
                                       the borrower and issues a loan to the borrower. The
                                       mortgage banker then sells the loan to an investor and
                                       may retain or sell the servicing of the loan that includes
                                       collecting monthly payments, forwarding the proceeds to
                                       the investors who purchased the loan, and acting as the
                                       investor’s representative for other issues and problems
                                       with the loan.



Material Loss Review of Charter Bank                                         Page 33
                        Appendix 3
                        Glossary


Mortgage servicing rights              A contractual agreement where the right or rights to
                                       service an existing mortgage are sold by the original
                                       lender to another party who specializes in the various
                                       functions of servicing mortgages.

Non-homogeneous assets                 Assets that are disparate and unrelated to each other
                                       such as real estate owned and multi-family real estate,
                                       nonresidential real estate, commercial business loans,
                                       and construction loans.

Prompt corrective action               A framework of supervisory actions for insured
                                       institutions that are not adequately capitalized. It was
                                       intended to ensure that action is taken when an institution
                                       becomes financially troubled in order to prevent a failure
                                       or minimize resulting losses. These actions become
                                       increasingly severe as an institution falls into lower
                                       capital categories. The capital categories are well-
                                       capitalized, adequately capitalized, undercapitalized,
                                       significantly     undercapitalized,      and      critically
                                       undercapitalized. (See 12 U.S.C. § 1831o.)

                                       The prompt corrective action minimum requirements are
                                       as follows:
                                                                Tier 1/
                                          Total                 Risk-             Tier 1/
                  Capital Category        Risk-Based            Based             Leverage
                                  a       10% or          and 6% or         and 5% or greater
                  Well-capitalized
                                          greater               greater
                  Adequately              8% or           and 4% or         and 4% or greater
                  capitalized             greater               greater           (3% for 1-rated)
                                          Less            or    Less        or    Less than 4% (except
                  Undercapitalized
                                          than 8%               than 4%           for 1-rated)
                  Significantly           Less            or    Less        or    Less than 3%
                  undercapitalized        than 6%               than 3%
                                          Has a ratio of tangible equity to total assets that is equal
                  Critically
                                          to or less than 2 percent. Tangible equity is defined in
                  undercapitalized
                                          12 C.F.R. § 565.2(f).
                  a
                    To be well-capitalized, a thrift also cannot be subject to a higher capital requirement
                  imposed by the Office of Thrift Supervision.

Recourse                               With respect to financial assets such as loans, the legal
                                       ability of the purchaser of an asset to make a claim
                                       against the seller of the asset if the debtor fails to pay.
                                       For example, a loan sold with a recourse provision would
                                       allow the loan’s purchaser to make a claim against the
                                       loan’s seller in the event of debtor default.



Material Loss Review of Charter Bank                                               Page 34
                        Appendix 3
                        Glossary


Risk-based capital                     The sum of Tier1 plus Tier 2 capital.

Safety and soundness                   The part of an examination that includes a review and
                                       evaluation of each CAMELS component (see explanation
                                       of CAMELS, above).

Special mention asset                  An asset that has potential weaknesses that deserve
                                       management's close attention. If left uncorrected, these
                                       potential weaknesses may result in deterioration of the
                                       repayment prospects for the asset or in the institution's
                                       credit position at some future date. Special mention
                                       assets are not adversely classified and do not expose an
                                       institution to sufficient risk to warrant adverse
                                       classification.

Subordinated debt                      Debt that is either unsecured or has a lower priority than
                                       that of another debt claim on the same asset or property.
                                       Subordinated debt is also called junior debt.

Substandard asset                      An asset that is inadequately protected by the current
                                       sound worth and paying capacity of the obligor or by the
                                       collateral pledged, if any. Assets classified as
                                       substandard must have a well-defined weakness, or
                                       weaknesses that jeopardize the liquidation of the debt. A
                                       substandard asset presents the distinct possibility that
                                       the institution holding it will sustain some loss if the
                                       asset’s deficiencies are not corrected.

Supervisory directive                  An informal enforcement action by the Office of Thrift
                                       Supervision that directs a thrift to cease an activity or
                                       take an affirmative action to remedy or prevent an unsafe
                                       or unsound practice.

Tangible equity                        Total assets minus intangible assets minus total
                                       liabilities.

Tier 1 capital                         Common shareholder’s equity (common stock, surplus,
                                       and retained earnings), noncumulative perpetual
                                       preferred stock, and minority interests in the equity
                                       accounts of consolidated subsidiaries.

Tier 2 capital                         Subordinated debt, intermediate-term preferred stock,
                                       cumulative and long-term preferred stock, and a portion
                                       of the allowance for loan and lease losses.




Material Loss Review of Charter Bank                                           Page 35
                        Appendix 3
                        Glossary


Thrift financial report                A financial report that thrifts are required to file quarterly
                                       with the Office of Thrift Supervision. The report includes
                                       detailed information about the institution's operations and
                                       financial condition and must be prepared in accordance
                                       with generally accepted accounting principles. The thrift
                                       financial report is similar to the call report required of
                                       commercial banks.

Transaction Account                    A component of the Federal Deposit Insurance
Guarantee Program                      Corporation’s Temporary Liquidity Guarantee Program.
                                       The Temporary Liquidity Guarantee Program was
                                       established in October 2008 as part of a coordinated
                                       effort by the Federal Deposit Insurance Corporation, the
                                       Department of the Treasury, and the Federal Reserve
                                       Board to address unprecedented disruptions in credit
                                       markets and the resultant inability of financial institutions
                                       to fund themselves and make loans to creditworthy
                                       borrowers. The Temporary Liquidity Guarantee Program
                                       has two distinct components: (1) the Debt Guarantee
                                       Program and (2) the Transaction Account Guarantee
                                       Program. The Federal Deposit Insurance Corporation
                                       guarantees certain senior unsecured debt issued by
                                       participating entities under the Debt Guarantee Program
                                       and all funds held in qualifying noninterest-bearing
                                       transaction accounts at participating insured depositary
                                       institutions under the Transaction Account Guarantee
                                       Program. Originally scheduled to expire on December 31,
                                       2009, the Transaction Account Guarantee Program was
                                       extended in August 2009 until June 30, 2010.
                                       Participating insured depositary institutions pay an
                                       assessment fee for the additional guarantee.

Wholesale funding                      Funding obtained by financial institutions through such
                                       sources as federal funds, public funds, FHLB advances,
                                       the Federal Reserve Board’s primary credit program,
                                       foreign deposits, and brokered deposits.




Material Loss Review of Charter Bank                                           Page 36
                Appendix 4
                Management Comments




Material Loss Review of Charter Bank   Page 37
                Appendix 4
                Management Comments




Material Loss Review of Charter Bank   Page 38
    Section II

Report Distribution
Department of the Treasury

    Deputy Secretary
    Office of Strategic Planning and Performance Management
    Office of Accounting and Internal Control

Office of Thrift Supervision

    Acting Director
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

United States Senate

    Chairman and Ranking Member
    Committee on Banking, Housing, and Urban Affairs

    Chairman and Ranking Member
    Committee on Finance

U.S. House of Representatives

    Chairman and Ranking Member
    Committee on Financial Services

Federal Deposit Insurance Corporation

    Chairman
    Inspector General

U.S. Government Accountability Office

    Comptroller General of the United States




Material Loss Review of Charter Bank                   Section II
(OIG-11-072)
